     A PUBLICATION OF THE INSPECTORS GENERAL OF THE UNITED STATES
         COUNCIL OF INSPECTOR GENERAL ON INTERGRITY & EFFICIENCY

                                        SPRING/SUMMER 2011




Suspension and Debarment Program 

A Powerful Tool to Promote Contractor Accountability in Contingency Environments
By Acting Inspector General Steven Trent and Brian Persico

Procurement fraud and lack of contract oversight             OVERVIEW
have been identified as major threats to the U.S.            The stated purpose of including suspension and
reconstruction effort in Afghanistan. The stakes are         debarment in the Federal Acquisition Regulation is
high and carry national security implications. Fail­         to ensure that government contracts are awarded
ure of systems, shoddy performance and diversion             only to responsible contractors. Use of these
of resources meant for reconstruction can create             remedies is a discretionary function intended for
advantages for the insurgency, while putting U.S.            the government’s protection and is not considered
troops, contractors and their employees at risk.             punishment.1 Debarment of a contractor may
          The best-known remedies for fraud or               occur on a finding of a “preponderance of the
significant misconduct are criminal prosecution or           evidence” that a contractor has engaged in
civil litigation. However, there is a third, lesser-         misconduct in connection with a public contract
known option – suspension and debarment – and                or subcontract, violated antitrust statutes relating
it can be a powerful tool in a contingency                   to the submission of offers, violated one or more
environment such as Afghanistan. The Office of               terms of a government contract, or engaged in
Special Inspector General for Afghanistan                    conduct so serious or compelling that it adversely
Reconstruction recognizes the potential of this              affects the present responsibility of the contractor
tool, and is making suspension and debarment                 or subcontractor.2 The secretary of each executive
actions a major core activity.                               branch department and agency has delegated to a
          SIGAR’s action is aligned with the view of         suspension and debarment official, the authority to
the Council of Inspectors General on Integrity and           take action to suspend and debar non-responsible
Efficiency that suspension and debarment can help            contractors.3 A “preponderance of evidence” is evi­
detect contractor fraud in its early stages. In              dence that, as a whole, shows that the fact sought
addition, it is responsive to the concerns of many
members of Congress, who are calling for strong
accountability measures that can be implemented              1) See 48 C.F.R. § 9.402(b); See Caiola v. Carroll, 851 F.2d 395, 

                                                             398-399 Vol. 271, U.S.App.D.C. 140, 143-144 (D.C. Cir. 1988).

in a timely manner to aggressively tackle contractor
                                                             2) See 48 C.F.R. § 9.406-2(b).

oversight.
                                                             3) See 48 C.F.R. § 9.403. 


                                                   Page 1 of 6
to be proven is more likely true than not.4                                 does not terminate a current contract. The U.S.
Debarment is more serious than suspension. The                              government may place an order with debarred con­
period of debarment, under the FAR, should                                  tractors for the guaranteed minimum quantity un­
generally not exceed three years. However, three                            der      indefinite-quantity,   indefinite-delivery
years is not a limit and periods of debarment may                           contracts. However, options may not be exercised
be extended or reduced. Suspension is a temporary                           or other steps taken, to extend the duration of a
measure designed to exclude contractors from                                current contract.9
contracting with the government during ongoing
legal proceedings or in instances where exigent
circumstances require the exclusion of a contractor                         DEVELOPMENT OF THE PROGRAM
immediately. To facilitate contactor suspensions in                         Until recently, the suspension and debarment rem­
such circumstances, the agency need only show                               edy of Section 9.4 of the FAR,10 or the
“adequate evidence” of wrongdoing to support an                             government-wide debarment and suspension
exclusion from government contracting.5                                     regulations      utilized  for    non-procurement
                                                                                          11
         The primary issue that the SDO considers                           transactions, has been used to address individuals,
in imposing debarment is whether the contractor is                          organizations and companies operating in
“presently responsible.”6 Present responsibility                            traditional support and development roles. In
requires, among other things, that a contractor                             particular, the remedy was used to address criminal
have the ability to perform contracts in accordance                         activity or performance issues associated with
with their requirements, have “a satisfactory record                        systems acquisition, facilities support contracts,
of business integrity and ethics,” and possess or be                        academic grants and similar functions performed
able to obtain the accounting and operational                               on behalf of the government as part of predictable
controls necessary to perform government                                    programs and agency requirements.
contracts.7 It is the contractor’s burden to                                        Since 9/11, however, “contingency”
demonstrate present responsibility.8 Debarred                               government contracting – to support deployed
contractors are excluded from receiving gov­                                U.S. forces, the governments of Iraq and
ernment contracts unless the agency head, or his or                         Afghanistan and the reconstruction of both
her designee, determines that a compelling reason                           countries – has grown steadily, both in absolute
exists to do so. In addition, offers may not be                             dollar value and as a share of overall government
solicited from debarred contractors, who are also                           contracting spending. According to the final report
banned from being awarded subcontracts                                      of the Commission on Wartime Contracting in
exceeding $30,000. It is important to note,                                 Iraq and Afghanistan, a total of $192.5 billion has
however, that current contracts are not affected                            been obligated for contracts and grants in
because suspension and debarment is a forward-                              Southwest Asia from fiscal year 2002 through
looking remedy. It can prevent an organization                              2011. Of that total, $187.2 billion went to
from being considered for future contracts, but                             contracts awarded for reconstruction projects,
                                                                            operational support needs and other requirements
4 ) See Caiola at 399; Robinson v. Cheney, 876 F.2d 152, 154,               that were met by contractors in theater.12
277 U.S.App.D.C. 393, 396 (D.C. Cir., 1989) (discussing the
preponderance of evidence standard).
                                                                            9) See 48 C.F.R. §§ 9.405, 9.405-1 and 9.405-2.

5 See 48 C.F.R. § 9.407-1(b).

                                                                            10) See 48 C.F.R. § 9.400.

6 48 C.F.R. 9.402(a); See Caiola at 398-99.

                                                                            11) 68 F.R. 66534, 26 Nov 03.

7 See 48 C.F.R. § 9.401-1; Frequency Electronics at 2. 

                                                                            12) Transforming Wartime Contracting: Controlling Costs, 

8 See 48 C.F.R. § 9.103(c); OSG Product Tankers LLC v. United 
             Reducing Risks, Commission on Wartime Contracting in Iraq and 

States, 82 Fed.Cl. 570, 576 (2008). 
                                       Afghanistan, 31 Aug 11, page 22.

                                                                  Page 2 of 6
         While numerous specialized organizations           result, cases that failed to be accepted for criminal
and contracting funding sources have been                   or civil action were being closed without referrals
developed to address these contracting needs, only          to SDOs, or were referred without the
limited changes have been made to the FAR and               documentary evidence needed to meet the
other regulations that provide contracting                  evidentiary standards for a successful suspension or
direction and guidance. Consequently, these                 debarment. This problem was especially acute for
organizations and sources of funding are guided by          SIGAR because many cases that were opened and
regulations developed for use in non-contingency            investigated involved local Afghan nationals or
environments. But the contingency environment               third-country nationals, or did not result in a
brings with it rapidly-evolving operational needs,          direct loss to the government, resulting in lack of
while many of the traditional organizations                 jurisdiction or a basis for sustaining a criminal or
specializing in contracting lack the investigative          civil case in U.S. District Court. We also identified
and audit capabilities found in the offices of              the need to have experienced legal counsel examine
inspectors general or law enforcement agencies.             cases as they developed, to ensure that referrals for
In contingency contracting cases, there are mul­            suspensions and debarments took place in a timely
tiple layers of contacts between the agent or audi­         manner and not – as had often been the case – as
tor developing information on a contractor, and             afterthoughts to criminal and civil remedies.
the agency attorney responsible for assembling the          Furthermore, we found that while SIGAR’s audit
case for review by the SDO. The end result is               functions could detect and report contractor
misunderstandings among the various stakeholders            failure to perform, available remedies were limited
at the agency attorney, investigator and auditor            to criminal action or civil cases brought under the
levels and about how, when and why suspension               Civil False Claims Act. These actions had the same
and debarment may be applied in the contingency             limitations found in criminal investigations – with
contracting environment.                                    the added complication that they are primarily
         In response to these challenges, SIGAR             directed toward determining efficiency and project
launched its Suspension and Debarment Program               completion, not individual or corporate
in June 2011 to operate in the Afghanistan                  wrongdoing.
contingency contracting environment. The                             At approximately the same time SIGAR
program integrates SIGAR’s audit and                        made the determination that suspension and
investigative functions with the administrative             debarment should be institutionalized as a core
remedies of suspension and debarment. The result            competency; the International Security and
is a dramatic increase in the number of suspension          Assistance Force and U.S. Forces-Afghanistan were
and debarment referrals in SIGAR’s cases: 47                identifying      and      emphasizing      contractor
individuals and seven companies referred for action         responsibility as a primary concern. As contracting
to the Army and U.S. Agency for International               in Afghanistan often involves multiple tiers of
Development since October 2010, with 24                     subcontractors to perform the requirements of a
referred since the inception of the SIGAR SDP.              contract, there has been an upswing in reports of
SIGAR developed its program after a review of the           shoddy or incomplete performance by subcon­
quality and quantity of referrals made to agency            tractors who have not been vetted by the contract­
SDOs based on reconstruction-related fraud cases.           ing officer, largely due to the lack of a direct legal
We determined that a significant number of cases            relationship with the government. This gap in the
were not being acted upon due to a focus on                 contractor vetting process has also allowed criminal
criminal convictions and civil recoveries. As a             networks and insurgents to divert contract funds

                                                  Page 3 of 6
from their intended purpose, frustrating the intent          SIGAR’s processes. It also is raising awareness of
of many projects designed to improve the Afghan              the important role that suspension and debarment
economy and the rule of law. In response to these            can play in reconstruction oversight, especially in
concerns, Task Force 2010, an anti-corruption                holding contractors accountable.
task force within ISAF, was established to oversee                    Coordination:        Throughout          the
contractor vetting processes and contractor                  development of suspension and debarment cases, it
oversight functions. ISAF and USFOR-A also                   is critical to coordinate with the Department of
highlighted the need to suspend or debar                     Defense, Department of State, USAID, ISAF,
contractors who engage in illicit activities –               USFOR-A and other organizations responsible for
including smuggling and links to criminal                    the award of contracts, task orders, purchase
networks – as the continued use of these                     orders, grants and loans in Afghanistan.
contractors undermines efforts to support and                Suspension and debarment actions do not happen
promote the rule of law. This emphasis on                    in a vacuum. The impact of excluding an in­
contractor vetting provided the SIGAR Suspension             dividual, organization or company from
and Debarment Program with guidance on how to                contracting has wide-ranging direct and indirect
meet the operational needs of ISAF and USFOR­                consequences. Steps are taken at all stages, prior to
A.                                                           the referral of any suspension or debarment of a
                                                             contractor to the appropriate SDO, to evaluate the
                                                             impact of exclusion. In addition, coordination
PROGRAM ELEMENTS                                             with partner organizations helps to develop
The SIGAR SDP is based on four main                          information      regarding     contractors.     This
components, which include training, coordination,            information can be used to collaterally address
integration and deliverables. Each of these is               contractor wrongdoing by recommending the
discussed in detail within the SIGAR SDP                     exclusion of individuals or subsidiaries, as opposed
instruction, which is a document based on best               to an entire organization or company, if ap­
practices found in the suspension and debarment,             propriate. To this end, SIGAR regularly
investigative, audit and intelligence communities.           coordinates its actions with Task Force 2010, the
Our goal is to implement a program that rapidly              U.S. Central Command Joint Theater Support
addresses operational and contracting needs found            Contracting Command, the Department of Justice
in the contingency contracting environment.                  and the International Contract Corruption Task
        Training: All SIGAR investigative and                Force. Coordination also takes place between
audit staff, at headquarters and forward deployed            SIGAR and the agency counsel responsible for
locations, are receiving comprehensive training on           reviewing suspension and debarment referrals, after
suspension and debarment. This training will take            a determination is made designating the lead
the form of in-person training by SIGAR attorneys            agency for each suspension and debarment action.
responsible for the implementation of the SDP,               This process of coordination helps to ensure that
and reference materials that can be used on a day-           the SIGAR Suspension and Debarment Program is
to-day basis during the course of investigations and         responsive to the operational needs of the
audits. Specific information about the materials to          contracting community in Afghanistan. It also
be gathered to support the suspension and                    provides inputs that assist in the further
debarment of individuals, organizations and                  development of the SIGAR’s Suspension and
contractors is provided, along with instruction on           Debarment Program.
how suspension and debarment works. This
training is institutionalizing these remedies in
                                                   Page 4 of 6
         Integration: As part of our Suspension and            debarment referral, and the documentation neces­
Debarment Program, SIGAR created the position                  sary to establish an administrative record for use by
of senior counsel for investigations to provide                the SDO. They are to be made at the earliest
centralized oversight and control over how                     opportunity, taking into account the need to
suspension and debarment actions are developed.                ensure that available criminal and civil remedies
This position, within the SIGAR Investigations                 are addressed prior to undertaking any suspension
Directorate, gives the SDP the ability to observe              or debarment action. To this end, the assistant
the development of cases and provide direction on              inspector general for investigations reviews all
the use of these remedies as part of our                       referrals for suspension and/or debarment to
investigative and audit strategies. This integration           ensure that such referrals do not impede or restrict
into SIGAR’s operations gives the senior counsel               the government’s ability to pursue criminal or civil
for investigations the ability to find, fix, track,            remedies against a contractor. In cases where a
target and engage individuals, organizations and               declination of criminal and/or civil remedies takes
companies accused of criminal activity or poor                 place, referrals are made following a determination
performance at an early stage, resulting in timely             by the senior counsel for investigations that the
referrals to SDOs. The findings of investigators               evidentiary standards for suspension or debarment
and auditors are supplemented by the ability of the            have been met. During the course of an
senior counsel for investigations to call upon                 investigation or audit, the senior counsel for inves­
specialized analyst assistance available to the                tigations also provides regular written input for the
investigations directorate. Moreover, in cases                 case file to document the need for materials to sup­
where force protection is an issue, the senior                 port a suspension or debarment. This ensures that
counsel for investigations receives information                – should these remedies become available – they
from the intelligence community using SIGAR’s                  can be utilized in a timely manner. Once a referral
capabilities to access classified materials. This              is made to the lead agency’s SDO, additional
integration also allows SIGAR to assess whether                supporting materials are provided to agency
follow-up actions, using suspension and debarment              counsel upon request. In all cases, prior to the
remedies, is needed when additional affiliate                  closing of an investigative file, the senior counsel
individuals, companies and organizations that have             for investigations provides a copy of any referral to
had conduct imputed to them or other targets are               a SDO or provides a written rationale outlining
identified during an investigation or audit. All               why a referral of a contractor for suspension or
criminal investigative cases that SIGAR                        debarment was not made by SIGAR.
participates in are referred to the senior counsel for
investigations at the time of opening and closing.
This ensures that suspension and debarment                     CONCLUSION
remedies are adequately addressed as part of the in­           Contract fraud has a corrosive impact wherever it
vestigative process.                                           occurs, but it is especially damaging in a
         Deliverables: The primary mission of the              contingency environment. Not only does it divert
SIGAR SDP is to provide comprehensive,                         taxpayer dollars from their intended uses, but also
documented and timely referrals of individuals,                it has the potential to divert U.S. resources to the
organizations and companies to SDOs. These                     insurgency and create additional hazards for our
referrals include information regarding the                    service members, contractors and their workforce.
background of a contractor, the basis for the                  Suspension and debarment is a powerful tool that
allegations supporting the suspension or                       can complement the better-known legal remedies

                                                     Page 5 of 6
of criminal prosecution and civil litigation. The ro­
bust use of suspension and debarment is endorsed
by CIGIE and supported by leading members of
Congress. SIGAR embraces this view, and believes
that suspension and debarment has an important
role to play in protecting the integrity of the
acquisition process and safeguarding the U.S.
taxpayers’ investment in Afghanistan
reconstruction from waste, fraud and abuse. 




                                                        Page 6 of 6
